     ACQUISITION OF GENERAL AND INDUSTRIAL ITEMS


Report No. D-2001-076                      March 13, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

CBU                   Commodity Business Unit
BRAC                  Base Realignment and Closure
DISC                  Defense Industrial Supply Center
DLA                   Defense Logistics Agency
DPSC                  Defense Personnel Support Center
DSCC                  Defense Supply Center Columbus
DSCP                  Defense Supply Center Philadelphia
DSCR                  Defense Supply Center Richmond
GSA                   General Services Administration
                       Office of the Inspector General, DoD

  Report No. D-2001-076                                                March 13, 2001
    (Project No. D2000LD-0206)

                 Acquisition of General and Industrial Items

                                 Executive Summary

Introduction. This audit is in response to allegations made to the DoD Hotline in
April 2000. The overall allegation was that the procurement work force for general
and industrial items was mismanaged at the Defense Supply Center Philadelphia,
resulting in a shortage of mission-essential items needed for major weapon systems.
The specific allegations are summarized and responded to in Appendix C.

The Defense Supply Center Philadelphia, one of three Defense Logistics Agency supply
centers, focuses on managing troop support supply items (clothing and textiles, medical
items, and subsistence) and general commodity items such as lighting and office
supplies. The Defense Supply Center Philadelphia also has management responsibility
for many industrial spare parts, such as fasteners and gaskets, that support multiple
weapon systems. As of September 30, 2000, the Defense Supply Center Philadelphia
managed about 1 million general and industrial items, of which 0.3 million were
designated mission-essential because, without them, weapon systems could not be
operated as intended. The Defense Supply Center Philadelphia supports 1,400 weapon
systems and buys general and industrial items valued at about $780 million each year in
support of military requirements.

Objective. The audit objective was to determine whether procurement support was
adequate in acquiring general and industrial items. We also reviewed the management
control program as it applied to the audit objective.

Results. The audit did not substantiate the allegation of mismanagement at the Defense
Supply Center Philadelphia. However, procurement support at the Center was
inadequate in acquiring general and industrial items. Since the implementation of Base
Realignment and Closure 1995 in July 1999, supply effectiveness at the Center
decreased as the administrative lead time taken by buyers to acquire general and
industrial items rose from 85 to 107 days. Inadequate procurement support was largely
responsible for about a 48 percent rise in backorders (137,929 in October 1998 to
203,663 in September 2000) of general and industrial items. Although customer
demands (requisitions) for general and industrial items increased only slightly for the
2-year period, the purchase requests backlog increased 40 percent at the Center over the
same period. The following figure shows changes in various acquisition personnel and
workload indicators over the 2-year period ending September 30, 2000, that are
important for managing general and industrial items.


               P e rs o n n e l a n d W o rk lo a d C h a n g e s fo r G e n e ra l a n d In d u s tria l
                                                                                             4 8 .0 %
    6 0 .0 %
                                                                                                                4 0 .0 %
    5 0 .0 %
                                                     26.0%
    4 0 .0 %

    3 0 .0 %

    2 0 .0 %                         3 .0 %
    1 0 .0 %

     0 .0 %
               A c q u is itio n   D em ands   A d m in istra tiv e     S u p p ly       B a c k o rd e rs   P u rc h a s e
   -1 0 .0 %
               P e rs o n n e l                  L e a d T im e       A va ila b ility                       R e q u e s ts
   -2 0 .0 %                                                                                                  B a c k lo g

   -3 0 .0 %                                                               -5 %
   -4 0 .0 %
                   -2 7 .0 %




To address the problems, the Defense Supply Center Philadelphia had a surge in
overtime, took steps to hire temporary employees, and initiated a contractor study that
will likely show more personnel are needed on a permanent basis. However, there
were other alternatives that the Center could have used. For details on the audit
results, see the Finding section.

The management controls were adequate. See Appendix A for details on our review of
the management control program.

Summary of Recommendations. We recommend that the Director, Defense Logistics
Agency, in conjunction with the Commander, Defense Supply Center Philadelphia,
assess whether supply effectiveness for general and industrial items could be improved
by reducing the acquisition workload and realigning personnel resources.

Management Comments. The Defense Logistics Agency generally concurred with the
recommendations, stating corrective actions have begun. A discussion of management
comments is in the Finding section of the report and the complete text is in the
Management Comments section.




                                                           ii
Table of Contents
Executive Summary                               i


Introduction
     Background                                 1
     Objective                                  3

Finding
     Procurement Support                        4

Appendixes
     A. Audit Process
           Scope and Methodology               18
           Management Control Program Review   19
     B. Prior Coverage                         21
     C. DoD Hotline Allegation                 23
     D. Report Distribution                    24

Management Comments
     Defense Logistics Agency                  27
Background
    DoD Hotline Allegation. In April 2000, we received an anonymous DoD
    Hotline allegation that the General and Industrial Directorate of the Defense
    Supply Center Philadelphia was being mismanaged and that supply effectiveness
    was being negatively affected. The specific allegations are summarized and
    responded to in Appendix C.

    Downsizing. During the 1990s, DoD initiated a number of measures to reduce
    its industrial complex to be in line with the post cold-war threat. The most
    ambitious measures were referred to as Base Realignment and Closure (BRAC)
    1991, 1993, and 1995. Under each BRAC, DoD identified a number of bases,
    supply centers, and depots that could be scaled back or eliminated with the
    consent of Congress and the approval of the President. Aside from BRAC,
    Congress and DoD established goals to trim its acquisition work force and
    inventory. DoD reduced its acquisition work force from 460,516 in FY 1990 to
    230,556 in FY 1999. The use of commercial business practices was stressed by
    Congress and DoD as a key means of achieving or mitigating the effects of
    acquisition work force and inventory reductions. The commercial business
    practice that was decided by DoD officials to be most applicable and productive
    was the use of prime vendors to take over wholesale acquisition functions. In
    theory, prime vendors would essentially take over the wholesale inventory and
    distribution functions by dealing directly with military installations to supply
    items on an as-needed basis either from their own stock or from manufacturers.
    Supply centers would play a role in establishing the prices of items with
    manufacturers and overseeing the performance of prime vendors. The use of
    prime vendors to supply medical items in 1995 was very successful and was
    championed by DoD and the Defense Logistics Agency (DLA) as an example of
    how commercial business practices could make Government logistics more
    effective and efficient. Other than the prime vendor concept, Congress and
    DoD stressed the use of more efficient contracting methods as a commercial
    business practice capable of increasing acquisition productivity.

    Consolidation. BRAC 1995 included disestablishing the Defense Industrial
    Supply Center (DISC) and transferring its workload to other commodity centers
    of DLA. It also included creating one commodity center for the management of
    troop and general support items at the Defense Personnel Support Center
    (DPSC). That meant that DPSC would assume the new mission of managing
    some 400,000 general support items. Both DPSC and DISC were located in
    Philadelphia, but were organized to manage different commodities. Prior to
    BRAC 1995, DPSC was organized into three commodity directorates to manage


                                      1
clothing and textiles, medical items, and subsistence. DISC was organized into
nine commodity business units (CBUs) to manage industrial spare parts. A
CBU essentially consists of supply control and acquisition personnel who
compute requirements and buy specific classes of materiel. The classes of
materiel managed by DISC included the hardware needed to repair major
weapon systems.

Implementation of BRAC 1995, including the decision to disestablish DISC,
began in 1998 when DPSC was renamed the Defense Supply Center
Philadelphia (DSCP). One year later, in accordance with BRAC 1993, DSCP
began a physical move to the same compound occupied by DISC. The three
commodity directorates of the prior DPSC remained intact in the new DSCP
organization. On July 2, 1999, DISC was disestablished and its six CBUs
(downsized from the nine CBUs) formed the newly established General and
Industrial Directorate in DSCP. From a personnel standpoint, BRAC 1995
established a beginning strength of 2,696 positions for DSCP, a reduction of
1,272 positions from what had been in place at both DPSC and DISC.

Supply Responsibility. DLA is primarily responsible for satisfying the
consumable item needs of the Military Departments. DLA buys and manages
consumable items through its three supply centers that remained after the
implementation of BRAC 1995. One of the major evolutions of BRAC 1995
was the alignment of DLA items under a weapon system support concept. The
Defense Supply Center Columbus (DSCC) was to focus on land and maritime
weapon support; the Defense Supply Center Richmond (DSCR) was to focus on
aviation weapon support; and DSCP was to focus on troop support (clothing and
textiles, medical items, and subsistence) and general commodity items such as
lighting and office supplies. The weapon system concept resulted in
management responsibility for some 650,000 items being transferred among the
three DLA supply centers from 1996 through 1999. DSCP assumed
management of general support items under BRAC 1995; it also subsequently
assumed management responsibility for many industrial spare parts, such as
fasteners and gaskets, that supported multiple weapon systems. As of
September 30, 2000, DSCP managed about 1 million general and industrial
items, of which 0.3 million were designated mission-essential because, without
them, major weapon systems could not be operated as intended. DSCP supports
1,400 weapon systems and buys general and industrial items valued at
$780 million each year in support of military requirements.

Workforce Criteria. As part of its annual budget review, DLA headquarters
makes adjustments to the personnel ceilings of its supply centers based on
projected funding and management initiatives. The supply centers are solely


                                 2
    responsible for staffing their needs within the annual personnel ceilings imposed
    by DLA headquarters. As of September 30, 2000, DSCP was authorized
    2,955 personnel, of which 1,015 were allocated to the General and Industrial
    Directorate. The personnel allocation to the General and Industrial Directorate
    was distributed among its four CBUs (the number of CBUs was reduced from
    six to four in April 2000) and other activities, as shown in Table 1.

      Table 1. Personnel Strength of the General and Industrial Directorate as
                              of September 30, 2000
                                                                       Customer
                                                        Inventory       Liaison
     CBU/Other                       Acquisition*       Managers       Specialists       Other         Total
     Bench stock                          158                45              23           70           296
     Equipment                             60                11              29           33           133
     Facilities maintenance                60                17              38           41           156
     General hardware                      82                27              20           40           169
     Other activities                     18                22               7          214            261
                                        ____              ____            ____          ____          ____
     Total                                378               122             117          398         1,015
     *Acquisition personnel include contracting officers, contract specialists, and procurement technicians,
     occupation specialties 1101, 1102 and 1106, respectively.



    To become a buyer and be authorized to award contracts, a person must earn a
    warrant. A warrant also establishes the dollar amount a buyer can contract for
    and increases with training and experience. Until a warrant is earned,
    acquisition personnel work as procurement technicians.


Objective
    The audit objective was to determine whether procurement support was adequate
    in acquiring general and industrial items. We also reviewed the management
    control program as it applied to the audit objective. See Appendix A for a
    discussion of the audit scope and methodology and our review of the
    management control program. See Appendix B for prior coverage related to the
    audit objective.




                                                 3
            Procurement Support
            Procurement support at DSCP was inadequate in acquiring general and
            industrial items. Since the implementation of BRAC 1995 in July 1999,
            supply effectiveness decreased as the administrative lead time taken by
            buyers to acquire general and industrial items rose from 85 to 107 days.
            The decline in supply effectiveness occurred because:

                   •   before BRAC 1995 was implemented, DLA did not properly
                       establish the number of personnel needed by DPSC to carry
                       out its prescribed acquisition mission, and assigned to the
                       newly organized DSCP item management responsibility for
                       about 150 percent more items than envisioned by
                       BRAC 1995, and

                   •   after BRAC 1995 was implemented, users required more
                       general and industrial items and, instead of focusing its work
                       force on performing traditional business activities, DSCP
                       engaged its work force in perpetuating and initiating new
                       commercial business practices that did not generate enough
                       productivity savings to offset the impact of personnel
                       reductions.

            As a result, inadequate procurement support at DSCP was responsible
            for about a 48 percent rise in backorders (137,929 in October 1998 to
            203,663 in September 2000) of general and industrial items. To address
            procurement support problems, DSCP had a surge in overtime, took
            steps to hire temporary employees, and initiated a contractor study that
            will likely show more personnel are needed on a permanent basis.
            However, there were other alternatives that DSCP could have used.


Supply Effectiveness
     Procurement Support at DSCP. Since the implementation of BRAC 1995 in
     July 1999, DSCP experienced a gradual decline in supply effectiveness. To
     evaluate the adequacy of procurement support and supply effectiveness, we
     determined the administrative lead time it took to award purchase requests for
     general and industrial items and the percentage of requisitions filled from stock
     (supply availability) over the 2-year period ending September 30, 2000. Before
     BRAC 1995 was implemented in July 1999, purchase requests were being
     awarded in 85 days and requisitions were being filled from stock at an
     88 percent rate--effectively meeting the DLA goal of 85 percent for satisfying
                                       4
customer requirements. As of September 30, 2000, purchase requests were
being awarded in 107 days and requisitions were being filled from stock at an
83 percent rate. Figure 1 shows the rise in administrative lead time and the
decline in supply availability over the 2-year period evaluated, from October 1,
1998, through September 30, 2000.


                                        Figure 1. Administrative Lead Time Versus
                                                    Supply Availability
      Administrative Lead Time (days)




                                        120                                                                                    90.00%




                                                                                                                                        Supply Availability
                                        110
                                                                                                                               85.00%
                                        100

                                         90
                                                                                                                               80.00%
                                         80

                                         70                                                                                    75.00%
                                                                 99




                                                                                                       00
                                              98

                                                        98




                                                                                    99

                                                                                              99




                                                                                                                          00
                                                                           99




                                                                                                                 00
                                                             Mar-




                                                                                                   Mar-
                                          Sep-




                                                                                Sep-




                                                                                                                      Sep-
                                                   Dec-




                                                                                         Dec-
                                                                      Jun-




                                                                                                            Jun-
                                               Administrative Lead Time                                     Supply Availability




While Figure 1 depicts supply effectiveness for both general and industrial type
items, the supply effectiveness for industrial items, which are most critical to
customers, had similar changes. As of September 30, 2000, purchase requests
for industrial items were being awarded in 117 days and requisitions were being
filled from stock at an 84 percent rate. From a significance standpoint, about
$18 million in additional inventory would be needed to return DSCP to an
88 percent supply effectiveness rate, assuming personnel support remained the
same and demand could be accurately forecasted.

Customer Support. The decline in supply effectiveness meant that DSCP
increasingly did not provide its customers with the items they requisitioned.
Instead, DSCP placed the requisitions on backorder until the items were
acquired. As of September 30, 2000, backorders for general and industrial
items were at 204,000, a 66,000 (48 percent) increase since July 1999.
Figure 2 shows the rise in backorders over the 2-year period evaluated.




                                                                            5
                                    Figure 2. Backorders at DSCP
           240,000

           220,000

           200,000

           180,000

           160,000

           140,000

           120,000

           100,000
                       8

                               98

                                        99

                                                  9



                                                                   99

                                                                             9

                                                                                     99

                                                                                              00

                                                                                                        0



                                                                                                                         00
                                                          99




                                                                                                                00
                  Oct-9




                                             Apr-9




                                                                        Oct-9




                                                                                                   Apr-0
                           Dec-

                                    Feb-




                                                               Aug-



                                                                                 Dec-

                                                                                          Feb-




                                                                                                                     Aug-
                                                      Jun-




                                                                                                            Jun-
To determine the effect that backorders had on DoD customers, we visited the
largest customer of DSCP, the Oklahoma City Air Logistics Center (the
Oklahoma Center), located at Tinker Air Force Base, Oklahoma. The
Oklahoma Center performs depot-level repair and overhaul work on a wide
range of aircraft and components. Readiness requires that the work be done
timely and that the aircraft and major components be returned to customers.
During FY 2000, the Oklahoma Center sent 172,000 requisitions to DSCP for
general and industrial items. As of November 30, 2000, DSCP had
8,328 requisitions from the Oklahoma Center on backorder. Operating
personnel at the Oklahoma Center who were dependent upon industrial items to
repair and overhaul aircraft engines stated that a lack of industrial items had
degraded their ability to satisfy the needs of their customers and had caused
other workload inefficiencies as well. The operating personnel specifically
noted the following inefficiencies that occurred because of a shortage of
industrial items.

       •   Aircraft and aircraft components were not repaired on time and
           equipment was not returned to the users as scheduled.

       •   Repair parts that should have been disposed of were reused in order
           to complete the maintenance process.


                                                      6
            •   Idle hours rose while repair work was delayed, thus increasing
                maintenance costs.

            •   Skilled aircraft maintenance personnel were assigned routine cleaning
                and maintenance tasks to keep busy.

            •   Major components were overscheduled for repair in order to “rob
                back” parts in the repair process. “Rob back” is a maintenance term
                for removing parts from one component in order to complete the
                repair process on another component.

     DSCP officials told us that the comments made by operating personnel at
     Oklahoma Center are indicative of all supply chains where supply availability is
     less than 100 percent. Nevertheless, the comments were made specifically about
     industrial items and the number of times the inefficiencies occur is a product of
     reduced supply effectiveness.


Acquisition Personnel
     Inadequate procurement support for general and industrial items can be traced to
     before BRAC 1995 was implemented, when DLA did not properly establish the
     number of personnel needed by DPSC to perform its new acquisition mission.
     BRAC 1995 dictated that DPSC was to continue managing troop support items
     and would assume management of some 400,000 general support items. To
     perform that total workload, BRAC 1995 authorized DPSC a staff of
     2,696 personnel. According to DLA officials, that number was generated from
     a cost model that contained information from diverse sources; DLA officials
     considered information generated from the cost model to be inconsistent and
     inaccurate. DLA did not systematically analyze available personnel and
     workload to determine the staff actually needed to acquire just the general
     support items. As the DPSC directorates for troop support commodities were to
     remain essentially intact after BRAC 1995 was implemented, the responsibility
     for acquiring general support items was to be left entirely to those personnel
     who had acquired industrial spare parts at DISC.

     On balance, the number of personnel who would be available to acquire
     400,000 general support items appeared sufficient at the time, considering that
     there were about 580 acquisition personnel at DISC supporting about 1.2 million
     industrial spare parts when BRAC 1995 was approved and the industrial spare
     parts workload was to be transferred to other supply centers. Furthermore, the
     acquisition process for general support items is normally less complex and less
     time-consuming than for industrial spare parts, given the commercial nature of
     general support items. Nevertheless, without a systematic analysis of personnel
                                       7
    and workload, the reasonableness that 580 acquisition personnel could support
    the acquisition of 400,000 general support items after BRAC 1995 was approved
    cannot be substantiated. Moreover, since BRAC 1995 was approved,
    subsequent increases in workload and the introduction of commercial business
    practices complicated the process considerably for establishing the personnel
    baseline needed for acquiring general support items and measuring the
    effectiveness of subsequent procurement support. Even so, the number of
    personnel that supported the acquisition of general and industrial items as of
    September 30, 2000, was clearly inadequate as demonstrated by the substantial
    decrease in supply effectiveness that occurred since BRAC 1995 was
    implemented.


Item Management Responsibility
    DLA contributed greatly to inadequate procurement support when, before
    BRAC 1995 was implemented, it assigned DSCP with item management
    responsibility for about 150 percent more items than envisioned by BRAC 1995.
    In July 1995, the Defense Base Closure and Realignment Commission reported
    to the President its recommendations for reducing the DoD infrastructure, to
    include disestablishing DISC. DLA prepared the justification for disestablishing
    DISC, which centered on a weapon system concept of management. The
    justification called for all industrial parts that supported weapon systems to be
    managed by either DSCC or DSCR, depending on whether the weapon system
    was based on air, land, or sea. General items that did not support weapon
    systems were to be managed by DPSC along with those consumable items
    associated with the welfare of troops. The rationale was that the acquisition of
    general support items was conducive to the same commercial business practices
    that had been adopted by DPSC in support of troops and, therefore, all items at
    DPSC would fall under the same management philosophy.

    Within 2 years after the decision in July 1995 to disestablish DISC, DLA
    elected to have DPSC assume management of about 600,000 industrial items
    common to one or more weapon systems that were originally to be managed by
    DSCC or DSCR. That decision, according to DLA officials, was made
    primarily to balance the workload of the three supply centers that would remain
    after BRAC 1995 was implemented. The decision was not accompanied by a
    systematic analysis of personnel and workload, although the addition of
    600,000 industrial items represented a 150 percent increase in workload from
    the initial assignment of 400,000 general items. From the standpoint of
    procurement support, the decision meant that DSCP would have--after the item
    transfers were made--about the same number of hardware items to manage as
    DISC, but with substantially fewer acquisition personnel. In July 1995, DISC

                                      8
    had about 580 acquisition personnel assigned to support the procurement of
    about 1.2 million industrial items. As of September 30, 2000, the General and
    Industrial Directorate of DSCP had about 378 acquisition personnel assigned to
    support the procurement of about 1 million general and industrial items.


More Business
    Demands. An increase in customer demands (requisitions) after BRAC 1995
    was implemented also played a role in the inadequate procurement support
    provided for general and industrial items. While the number of general and
    industrial items remained about the same, the number of demands for those
    items rose slightly after BRAC 1995. The rise in customer demands
    (particularly in the quantities of items ordered in the third and fourth quarters of
    FY 2000) aggravated the already significant problem posed by the loss of
    acquisition personnel as a result of BRAC 1995. Figure 3 shows that the
    number of acquisition personnel for general and industrial items declined from
    518 to 378 (27 percent) over the 2-year period ending September 30, 2000,
    while average monthly demands for the items they supported rose from 415,263
    in FY 1999 to 427,699 in FY 2000 (3 percent). The actual monthly demands
    rose from 402,377 in October 1998 to 408,387 in September 2000.




                                         Figure 3. Acquisition Personnel Versus Demands

                               550,000                                                                                       550
      Actual Monthly Demands




                                                                                                                                   Acquisition Personnel
                               500,000
                                                                                                                             500
                               450,000

                               400,000                                                                                       450

                               350,000                                                                                       400
                               300,000
                                                                                                                             350
                               250,000

                               200,000                                                                                       300
                                         8

                                              98

                                                     99

                                                            9



                                                                           99

                                                                                  9

                                                                                          99

                                                                                                 00

                                                                                                        0



                                                                                                                       00
                                                                    99




                                                                                                                00
                                     Oct-9




                                                           Apr-9




                                                                                 Oct-9




                                                                                                       Apr-0
                                             Dec-

                                                    Feb-




                                                                          Aug-



                                                                                         Dec-

                                                                                                Feb-




                                                                                                                      Aug-
                                                                   Jun-




                                                                                                               Jun-




                                                      Demands                            Acquisition Personnel




                                                                     9
The loss of acquisition personnel from BRAC 1995 had a dramatic effect on
personnel support and affected the morale of those remaining personnel who had
worked at DISC. Besides breaking ties with many of their co-workers as a
result of BRAC 1995, DISC personnel had to undergo several internal
reorganizations that, according to a DSCP official, left them without
experienced, senior leadership and essentially anxious and mistrustful. In
effect, the work force was not equipped in numbers or spirit to handle
additional work.

Purchase Requests. The increase in customer demands contributed to a
substantial increase in purchase requests and a growing backlog that had to be
awarded by acquisition personnel for general and industrial items. In
October 1998, DSCP had 41,100 purchase requests on hand to be awarded for
general and industrial items. Figure 4 shows that the number of acquisition
personnel for general and industrial items declined from 518 to 378 (27 percent)
over the 2-year period ending September 30, 2000, while the amount of
purchase requests on hand for the items they supported rose to 57,500, an
increase of 16,400 (about 40 percent).


                                           Figure 4. Acquisition Personnel Versus
                                                Purchase Requests Backlog
                              65,000                                                                                                      550

                              60,000
  Purchase Requests Backlog




                                                                                                                                                Acquisition Personnel
                                                                                                                                          500
                              55,000

                              50,000                                                                                                      450

                              45,000                                                                                                      400
                              40,000
                                                                                                                                          350
                              35,000

                              30,000                                                                                                      300
                                                       99

                                                                   9




                                                                                 9




                                                                                                          00

                                                                                                                      0




                                                                                                                                    0
                                       8

                                                 98




                                                                        9




                                                                                        9

                                                                                                    99




                                                                                                                           0
                                                             Apr-9




                                                                                   9




                                                                                                                Apr-0




                                                                                                                                      0
                                   Oct-9




                                                                           9



                                                                                       Oct-9




                                                                                                                          Jun-0
                                                                               Aug-




                                                                                                                                  Aug-
                                            Dec-

                                                      Feb-




                                                                       Jun-




                                                                                               Dec-

                                                                                                         Feb-




                                           Purchase Requests Backlog                                            Acquisition Personnel




The growth in the backlog of purchase requests began about the time acquisition
personnel were substantially reduced in July 1999. The decrease in buyers
available to award purchase requests began when BRAC 1995 was fully
implemented, creating a problem in processing purchase requests that intensified
as the number of monthly purchase requests rose from 27,666 to
40,433 (46 percent) over the 2-year period ending September 30, 2000.

                                                                           10
    Because there were fewer buyers and technicians, and more purchase requests,
    the processing time needed to award purchase requests for backordered items
    increased. Table 2 lists six examples of backordered items that operating
    personnel at the Oklahoma Center identified as critical to the repair of aircraft
    engines. Table 2 shows the actual processing time taken by DSCP to award
    individual purchase requests for the six items after BRAC 1995 was
    implemented.

                  Table 2. Examples of Backordered Items from
                       Oklahoma City Air Logistics Center
                                                        Actual Item Processing
                                                         Time in Days (Post-
           National Stock Number      Nomenclature          BRAC 1995)
              5310-01-126-8473          Washer                   307
              5330-01-128-8037      Packing Assembly             297
              5331-01-126-8476           O-Ring                  245
              5330-01-128-8036      Packing Assembly             189
              5320-01-197-6644     Threaded Pin-Rivet            186
              5330-01-128-8045      Packing Retainer             145



    Before the implementation of BRAC 1995, the processing time for awarding
    purchase requests for the Federal Supply Classes of the above six items
    averaged 67 to 92 days. After the implementation of BRAC 1995, the actual
    processing time for each of the six items ranged from 145 to 307 days. Based
    on interviews conducted with inventory management and acquisition personnel
    at DSCP, the time required to process the purchase requests increased because
    of a workload backlog and a shortage of personnel to handle the workload.


Commercial Business Practices
    Instead of focusing its work force on performing traditional business activities
    after BRAC 1995 was implemented, DSCP engaged its work force in
    perpetuating and initiating new commercial business practices that did not
    generate enough productivity savings to offset the impact of a decrease in
    personnel and an increase in customer demands and purchase requests. In 1997,
    following higher level direction to shift to commercial business practices, DISC
    reclassified (and in many cases promoted) 60 of its most skilled buyers as
    customer liaison specialists. The main task of the specialists was to explore
    contracting out supply and distribution functions to prime vendors, and thus
    reduce the need for item managers and buyers as well as reduce storage space
                                      11
needed at depots. The reclassification made sense in 1997 because of the
impending BRAC personnel decreases and because the workload, general
support items, to be assigned to DPSC would be entirely conducive to the prime
vendor concept. In fact, another 57 customer liaison specialists were added to
explore commercial business practices before BRAC 1995 was implemented,
and before the number of personnel at DPSC and DISC was reduced by
1,272 positions. However, the decision to retain a large number of industrial
items at DPSC meant that item managers and buyers would still be needed to
support traditional business after the personnel reductions from BRAC 1995
took effect.

Nevertheless, DSCP elected to impose the total impact of BRAC cutbacks in
July 1999 on those personnel remaining to support traditional business. Those
personnel reclassified as customer liaison specialists to explore commercial
business practices in 1997 and afterward were not affected by BRAC 1995
reductions. The majority of the personnel reductions were made to occupation
specialties 1102 (contract specialists) and 1106 (procurement technicians), the
latter made up mostly of lower grade employees who acted as administrative
assistants or helpers in awarding contracts for traditional business. Thus, the
buyers that remained to support traditional business had to handle more work as
well as the duties normally performed by administrative assistants. The
reductions in personnel practically ensured that supply effectiveness related to
traditional procurement support of general and industrial items would decline.
To offset the potential decline in supply effectiveness, DSCP relied on the shift
to new commercial business practices, such as prime vendor initiatives and more
efficient contracting methods, for immediate benefits and to substantially ease
the acquisition workload.

Benefits Achieved From Prime Vendor Initiatives. Efforts to improve
personnel support at the wholesale level for general and industrial items through
the introduction of prime vendor initiatives have not materially improved
productivity. The most productive way that prime vendors can be of benefit at
the wholesale level is by eliminating items to manage; that is, by taking over
acquisition and distribution responsibility from supply centers. Since 1997,
there have been nine initiatives to engage prime vendors: eight for various
categories of general items and one for bench stock, the largest category of
industrial items.

       General Items. As of September 30, 2000, DSCP had transferred about
33,000 (8 percent) of its general support items to prime vendors to manage.
Those items included cleaning products, film, and paints. What those items,
and many similar general support items still managed by DSCP, have in
common is that they do not support weapon systems and can easily be acquired

                                  12
locally. In fact, users can and often do acquire the same type of items locally to
avoid delays and surcharge costs associated with wholesale support. Thus, the
general support items that were transferred to prime vendors may have reduced
acquisition workload, but the workload was not as critical to the warfighter as
filling requisitions for mission-essential spare parts. Furthermore, customer
liaison specialists were still required to oversee the prime vendors who managed
the items. A more productive alternative for reductions in general item
workload could have been achieved by transferring management responsibility
for the items to the General Services Administration (GSA).

        From 1997 through 1999, we issued five reports that questioned DSCP
use of acquisition resources to buy general support items and explore
commercial business practices when acquisition support was available through
the GSA. The five reports are listed in Appendix B. As of September 30,
2000, DSCP had not transferred management responsibility for any general
support items to the GSA. DSCP officials told us that management
responsibility was not transferred to GSA because of the added value DSCP
provides to its customers--mainly, providing a competitive option and
determining the emergency requirements of customers and acting as an
intermediary with vendors in the event of a crisis. Nevertheless, DSCP did
reduce administrative costs by using GSA procurement services. Since the last
of our five reports was issued in December 1999, DSCP issued a blanket
purchase agreement for 11,657 administrative product line items with a GSA
schedule holder. Although DSCP may provide added value and use GSA
procurement services, it could further improve supply effectiveness by using its
scarce resources to acquire critical weapon system items for the warfighter
rather than acquiring commercially available items.

        Industrial Items. As of September 30, 2000, DSCP had not transferred
any of its industrial items to prime vendors to manage. DSCP initiated the
industrial prime vendor program in July 1998 as a 5-year test program to
explore innovative logistics solutions for providing spare parts used by
maintenance, repair, and overhaul facilities. The conceptual goal of the
program was to improve logistics support to depot facilities at a lower cost by
streamlining the logistics pipeline. Productivity benefits were expected to
accrue at the wholesale level by transferring materiel management responsibility
from the Government to the contractor. Under the test program, DSCP
awarded a number of prime vendor contracts to support defense depots around
the world. However, materiel management responsibility had not been
transferred to a contractor for items in the test program.




                                  13
        In Inspector General, DoD, Report No. D-2001-072, “Industrial Prime
Vendor Program at the Naval Aviation Depot-North Island,” March 5, 2001,
our review of one of those contracts--to support the Naval Aviation Depot-North
Island, California--showed that the wholesale-level goal of transferring materiel
management responsibility would likely not be achieved. At the retail level, the
prime vendor program had a more positive result in that the depot reduced its
inventory and logistics personnel. However, at the wholesale level, the prime
vendor program helped create a dual supply system because the contractor could
not provide the depot with parts cheaper than DSCP and because DSCP still had
to supply the same items to customers who were not supported by the
contractor. In fact, 82 percent of the items provided to the Naval Aviation
Depot-North Island by the contractor came from the DLA supply system. Here
again, the application of scarce acquisition resources to satisfy several
warfighters and achieve future benefits needed to be weighed against the
immediate, critical needs of all warfighters.

        Application of Prime Vendor Concept. The prime vendor concept may
not improve supply effectiveness because the concept is not readily adaptable to
purchasing industrial spare parts. The prime vendor concept worked
particularly well with DSCP-managed medical items because the concept had
already been introduced successfully to the retail medical industry and the same
items needed by DSCP were widely available through commercial channels.
The Government workload, in total, represented only about a 1 percent increase
in business for the medical prime vendors already in place and could be
accommodated easily anywhere in the continental United States or overseas.
Just the opposite environment and conditions existed for introducing industrial
spare parts to the prime vendor concept, particularly mission-essential items that
are uniquely military in supporting weapon systems.

Benefits Achieved From More Efficient Contracting Methods. Efforts to
improve personnel support for general and industrial items, through the
introduction of more efficient contracting methods, have also had limited
success at the wholesale level but appear to offer better potential for improving
productivity than prime vendor initiatives. Efficient contracting methods
include the use of corporate and long-term dedicated contracts to satisfy user
needs. Corporate contracts are awarded for the full product line of a vendor and
the aggregate requirements of one or more inventory control points. Long-term
dedicated contracts are awarded to one manufacturer for a number of years.
Both types of contracts usually involve direct delivery of goods to users and
incorporate electronic data interface ordering capability.




                                  14
    The advantage of exploring more efficient contract methods, as opposed to
    prime vendor initiatives, is that they require fewer resources to accomplish and
    can be used by all customers--the latter having a particularly positive effect on
    personnel support by eliminating day-to-day management tasks. As of
    September 30, 2000, DSCP had management responsibility for 22 corporate
    contracts to supply about 4,500 industrial line items. Also, as of
    September 30, 2000, DSCP had placed about 5,400, mostly industrial, line
    items on long-term dedicated contracts and had solicited bids for long-term
    dedicated contracts for additional line items. Overall, DSCP had engaged about
    13 contract specialists full time to successfully place about 9,900 of its industrial
    line items under more efficient contracting methods. That compares with
    117 customer liaison specialists that DSCP engaged full time who successfully
    placed 33,000 general support items, and attempted to place an unknown
    number of bench stock spare parts, under prime vendor contracts.


Conclusion
    DSCP did not have enough acquisition personnel to adequately sustain the
    procurement of mission-essential spare parts for weapon systems. The
    traditional way of sustaining weapon systems, at the retail level by users and at
    the wholesale level by depots and inventory control points, was largely undone
    during the 1990s by a series of initiatives that reduced acquisition personnel and
    inventory. The reductions in acquisition personnel and inventory were dictated
    by decreases in DoD funding and were to be mitigated through greater use of
    commercial business practices, most notably the use of prime vendors to deal
    directly with customers in satisfying their needs for consumable items. In
    effect, Government support was to be replaced by commercial support and more
    innovative procurement methods. That concept was largely the rationale for
    BRAC 1995 reductions and the reduction of personnel in the DSCP General and
    Industrial Directorate. However, the reductions in acquisition personnel and
    inventory were made before the commercial business practices were proven
    successful for industrial items. In FYs 1999 and 2000, the newly established
    DSCP was not equipped to handle traditional business as well as explore new
    commercial business practices. The post-BRAC 1995 staff at the General and
    Industrial Directorate was neither capable of nor receptive to handling a larger
    workload. To improve supply effectiveness, DSCP initiated measures that
    increased personnel costs without fully assessing more efficient alternatives.

    Efforts to Improve Supply Effectiveness. DSCP initiated a number of cost-
    additive measures to improve the supply effectiveness for general and industrial
    items. Most notably, it incurred about $1.4 million in personnel overtime
    during FY 2000, which effectively stopped the rise in backorders and brought

                                       15
    the backorders down to a monthly level of about 200,000. DSCP had also
    planned to hire about 40 temporary employees by the end of January 2001. In
    addition, it initiated a $190,000 contractor study of staffing requirements that
    will likely show more personnel are needed on a permanent basis. Although
    those measures should improve supply effectiveness, they come with the price of
    higher personnel costs--possibly even higher than before BRAC 1995 was
    implemented.

    Alternatives. Several alternatives for improving supply effectiveness at DSCP
    could prove to be more efficient than increasing personnel costs. DLA and
    DSCP could make better use of the acquisition services of GSA for general
    items that do not support weapon systems and could transfer the responsibility
    for acquiring industrial items that support weapon systems to either DSCC or
    DSCR. Another alternative to increasing personnel costs would be for DSCP to
    focus on greater use of corporate and long-term dedicated contracts. Further,
    DSCP could improve productivity by realigning its work force to better perform
    traditional business activities. The last alternative appears to offer the most
    promise for a quick and practical increase in supply effectiveness.


Recommendations, Management Comments, and Audit
 Response
    We recommend that the Director, Defense Logistics Agency, in conjunction
    with the Commander, Defense Supply Center Philadelphia, assess whether
    supply effectiveness for general and industrial items could be improved by
    reducing the acquisition workload and realigning personnel resources.
    Specifically, an evaluation should be made to determine improvements to
    procurement support by:

          1. Transferring management or procurement responsibility for
    general items that do not support weapon systems and that can be acquired
    commercially to the General Services Administration.

    Defense Logistics Agency Comments. DLA partially concurred and stated that
    DLA and GSA will continue to reassess the management of commercially
    available items as opportunities arise. However, DLA also indicated that the
    use of GSA to acquire commercially available items could be a detriment to
    planning and reacting to wartime readiness requirements.




                                     16
Audit Response. The DLA comments are responsive. We would not expect
GSA to be used to acquire general support items that critically impact readiness.
Our recommendation only addresses those general support items being acquired
by DSCP that are of little consequence to the warfighter mission and can be
acquired commercially anywhere and anytime.

        2. Transferring industrial items that support weapon systems to
either the Defense Supply Center Columbus or the Defense Supply Center
Richmond, depending on their application.

Defense Logistics Agency Comments. DLA concurred and stated that, in
September 2000, it formed a Process Action Team to review the realignment of
weapon system items among inventory control points. As of February 2001, the
team was evaluating options for further transfer of weapon system items based
on best support and business sense.

       3. Emphasizing the use of more efficient contracting methods, such
as corporate and long-term dedicated contracts.

Defense Logistics Agency Comments. DLA concurred and stated that it is
well along in creating more effective long-term contracts to replace repetitive
small purchases. DLA stated it will continue to review national stock numbers
for additional strategic sourcing opportunities.

       4. Reassigning personnel involved in exploring commercial business
practices to support traditional business in reducing backorders to mission-
essential spare parts.

Defense Logistics Agency Comments. DLA concurred and stated that DSCP is
detailing and reassigning personnel to better manage resources and workload.
During August 2000, 29 customer liaison specialists and business analysts were
detailed to buying teams to help reduce the procurement backlog in traditional
areas.




                                 17
Appendix A. Audit Process

Scope and Methodology

    We reviewed the procedures and management controls for staffing the
    acquisition of general and industrial items for the period October 1998 through
    September 2000. We reviewed documentation associated with the establishment
    of DSCP and higher level initiatives that affected staffing and workload
    throughout the 1990s. Specifically, we reviewed the rationale for BRAC 1995,
    DoD goals for reducing acquisition personnel and inventory, and DoD plans for
    adopting commercial business practices. We also interviewed officials and
    obtained documentation from DLA headquarters and DSCP, including
    organizational charts, personnel classification data, and performance
    measurement statistics, dated from October 1998 through September 2000. In
    addition, we visited the largest customer of DSCP general and industrial items,
    the Oklahoma City Air Logistics Center at Tinker Air Force Base, to evaluate
    supply performance.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key war fighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)
           FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (01-DoD-2.3) FY 2001
           Performance Measure 2.3.4: Logistics Response Time.
           (01-DoD-2.3.4)




                                       18
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           Logistics Functional Area. Objective: Reduce logistics cycle times.
           Goal: Reduce average logistics response times by 1/3 by 9/97 (based on
           1st QTR FY 1996 averages) and reduce average age of backordered items
           to 30 days by 10/01. (LOG-1.1)

    High-Risk Area. The General Accounting Office has identified several high-
    risk areas in DoD. This report provides coverage of the Defense Inventory
    Management high-risk area.

    Use of Computer-Processed Data. We used computer-processed statistics and
    supply management information that came from the Standard Automated
    Materiel Management System. To the extent that we reviewed the computer-
    processed data, we concluded the data were sufficiently reliable to be used in
    meeting our objective. We did not audit the system that produced the data.

    Audit Type, Dates, and Standards. We conducted this economy and
    efficiency audit from June through December 2000 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DSCP management controls over procuring spare parts.
    Specifically, we reviewed DSCP management controls over backorders of



                                       19
general and industrial spare parts needed for major weapon systems. Because
we did not identify a material weakness, we did not assess management’s
self-evaluation.

Adequacy of Management Controls. DSCP management controls for spare
part procurement were adequate as they applied to the audit objective.




                                  20
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office issued four reports and
    the Inspector General, DoD, issued eight reports covering aspects of spare parts
    procurement. Unrestricted General Accounting Office reports can be accessed
    over the Internet at http://www.gao.gov. Unrestricted Inspector General, DoD,
    reports can be accessed at http://www.dodig.osd.mil/audit/reports.


General Accounting Office
    GAO Report No. NSIAD-00-89 (OSD Case No. 2011), “Defense
    Logistics: Actions Needed to Enhance Success of Reengineering Initiatives,”
    June 23, 2000

    GAO Report No. NSIAD-00-30 (OSD Case No. 1920), “Defense
    Inventory: Opportunities Exist to Expand the Use of Defense Logistics Agency
    Best Practices,” January 26, 2000

    GAO Report No. NSIAD-99-63 (OSD Case No. 1784), “Air Force Depot
    Maintenance: Management Changes Would Improve Implementation of Reform
    Initiatives,” June 25, 1999

    GAO Report No. NSIAD/AIMD-99-77 (OSD Case No. 2011), “Air Force
    Supply: Management Actions Create Spare Parts Shortages and Operations
    Problems,” April 29, 1999


Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-072, “Industrial Prime Vendor
    Program at the Naval Aviation Depot-North Island,” March 5, 2001

    Inspector General, DoD, Report No. D-2000-088, “DoD Acquisition
    Workforce Reduction Trends and Impacts,” February 29, 2000

    Inspector General, DoD, Report No. D-2000-056, “DoD Electronic Mall
    Implementation Planning,” December 15, 1999

    Inspector General, DoD, Report No. 99-184, “Financial Impacts of Defense
    Logistics Agency Electronic Catalog and Office Supplies Initiatives on Retail
    Level Purchasing,” June 11, 1999

    Inspector General, DoD, Report No. 99-037, “Initiatives to Improve
    Acquisition Lead Time,” November 23, 1998



                                       21
Inspector General, DoD, Report No. 98-144, “Dual Management of
Commercially Available Items--Information and Imaging Solutions,”
June 3, 1998

Inspector General, DoD, Report No. 98-037, “Dual Management of
Commercially Available Items--Battery, Food Service, and Photographic
Products,” December 12, 1997

Inspector General, DoD, Report No. 97-205, “Dual Management of
Commercially Available Items--Defense Logistics Agency Electronic Catalog
Pilot Program,” August 15, 1997




                                 22
Appendix C. DoD Hotline Allegation

   Allegation. This report was prepared in response to an April 2000 Defense
   Hotline allegation that the procurement work force for general and industrial
   items was mismanaged, resulting in a shortage of mission-essential items needed
   for major weapon systems. The allegation was specific in contending that a
   particular individual effected two separate personnel decisions.

          •   The individual removed experienced managers and replaced them
              with inexperienced managers. The individual transferred three
              GS-15 managers with technical knowledge of weapon systems from
              the bench stock CBU and replaced them with three GS-15 managers
              from the Subsistence Directorate of DSCP.

          •   The individual reduced the number of buyers with warrants. In
              March or April 2000, the individual reduced the number of buyers in
              the bench stock CBU from 200 to 50 or 60. The number of buyers
              in the entire General and Industrial Directorate was reduced by
              205 positions, from 479 to 274.

   Conclusion. The allegation could not be substantiated. The specific contention
   that a particular individual removed experienced managers and replaced them
   with inexperienced managers was unfounded because the particular individual
   had never been in a position to change management personnel. When the
   General and Industrial Directorate was reduced to four CBUs in April 2000,
   new managers were selected and promoted competitively from a list of qualified
   members of the DSCP work force and approved at the highest level within
   DSCP. Also, the specific contention that the same particular individual reduced
   the number of buyers with warrants was unfounded because the reduction in
   buyers came about as a result of BRAC 1995 and the realignment of personnel
   to explore new commercial business practices--actions that predated the
   formation of the General and Industrial Directorate and the particular
   individual’s authority. Nevertheless, the DoD Hotline allegation was factual in
   contending that problems existed with the work force and that those problems
   reduced supply effectiveness.




                                      23
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
  Deputy Under Secretary of Defense (Acquisition Reform)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Logistics Agency
  Commander, Defense Supply Center Philadelphia


Non-Defense Federal Organizations
Office of Management and Budget




                                          24
Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         25
Defense Logistics Agency Comments




                      27
28
29
30
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Tilghman A. Schraden
Thomas D. Kelly
Alexander L. McKay
Robert E. Schonewolf
Kayode O. Bamgbade
William H. Zeh
Janice Conte
Jason T. Steinhart
